INTERIM REPORT ON THE DEPARTMENT 

 OF JUSTICE’S USE AND SUPPORT OF 

   UNMANNED AIRCRAFT SYSTEMS



        U.S. Department of Justice 

      Office of the Inspector General 

               Audit Division 


              Report 13-37 

             September 2013   R


   INTERIM REPORT ON THE DEPARTMENT OF JUSTICE’S 

   USE AND SUPPORT OF UNMANNED AIRCRAFT SYSTEMS 


                               EXECUTIVE SUMMARY



       The Department of Justice Office of the Inspector General (OIG) is
conducting an audit of the domestic use of unmanned aircraft systems (UAS)
by the Department of Justice (DOJ), commonly referred to as unmanned
aerial vehicles or “drones,” as well as its support and provision of UAS to
other law enforcement agencies and non-profit organizations.1 This interim
report presents an overview of DOJ’s UAS use and policies as of May 2013.

       As of May 2013, four DOJ law enforcement components had either
tested for evaluation or used UAS to support their operations. Although the
Federal Bureau of Investigation (FBI) is the only DOJ component to have
used UAS to support its mission, the Bureau of Alcohol, Tobacco, Firearms
and Explosives (ATF) reported to us that it plans to deploy UAS to support
future operations. The Drug Enforcement Administration (DEA) and the
United States Marshals Service (USMS) have acquired UAS for testing, but
told us that they have no plans to deploy them operationally. Specifically,
the DEA stated that it plans to transfer its UAS to another federal agency,
while the USMS stated that it plans to destroy its UAS because its UAS are
obsolete and no longer operable. From 2004 to May 2013, DOJ law
enforcement components reported spending in total approximately $3.7
million on UAS, with the FBI accounting for over 80 percent of this amount.2

      In addition, the Office of Justice Programs (OJP) and Office of
Community Oriented Policing Services (COPS) have provided $1.2 million in
funding to seven local law enforcement agencies and non-profit
organizations to purchase UAS for testing or use.

      The UAS known to have been purchased or funded by DOJ have been
what the Federal Aviation Administration (FAA) defines as “small UAS,”

       1
            UAS are remotely piloted aerial vehicles and their associated ground control
stations.
       2
          Total expenditures associated with UAS acquisition include costs for: (1) the
vehicles, (2) mission payloads, (3) ground control station, (4) control and data links, and
(5) manufacturer-provided training. As of May 2013, the FBI had spent over $3 million on
UAS activities, the ATF almost $600,000, and the USMS $75,000. The DEA acquired
research UAS from another federal agency at no cost.
which weigh up to 55 pounds. DOJ officials told us that none of their UAS
are armed or carry releasable projectiles.

Need for UAS-Specific Policies

       While both the FBI and ATF have developed procedures guiding how to
receive approval to operate UAS, officials with both components told us they
did not believe that there was a need to develop specialized UAS privacy
protocols. During our review, FBI and ATF officials stated that they did not
believe there was any practical difference between how UAS collect evidence
through aerial surveillance as compared to manned aircraft. Consequently,
we found that the FBI has been applying its existing aerial surveillance
policies to guide how agents should use UAS. ATF officials told us that, as of
May 2013, the ATF was developing a standard operational checklist to guide
how its agents should use UAS.

      However, we found that the technological capabilities of UAS and the
current, uncoordinated approach of DOJ components to UAS use may merit
the DOJ developing consistent, UAS-specific policies to guide the proper use
of UAS. Unlike manned aircraft, UAS can be used in close proximity to a
home and, with longer-lasting power systems, may be capable of flying for
several hours or even days at a time, raising unique concerns about privacy
and the collection of evidence with UAS. Considering that multiple DOJ
components are using or have the potential to use UAS, we believe the
Office of the Deputy Attorney General (ODAG), which has responsibility
within DOJ for formulating cross-component law enforcement policies,
should consider the need for a DOJ-wide policy regarding UAS uses that
could have significant privacy or other legal implications.

Need for Enhanced UAS Award Coordination and Oversight

       Both OJP and COPS need to enhance their efforts to monitor UAS
awards and improve coordination between award recipients with DOJ-funded
UAS and DOJ law enforcement components. Specifically, neither OJP nor
COPS required that UAS award recipients demonstrate that they could
receive FAA approval to operate UAS or that UAS use was legal in their
jurisdiction. Their UAS awards also did not require recipients to report
specific data necessary to measure the success of UAS testing, or to use or
share the results of their programs with DOJ. Although UAS supported by
DOJ award funds have the potential to be deployed in ways that may
interfere with ongoing DOJ law enforcement surveillance efforts, we found
no evidence that OJP or COPS coordinated with or notified DOJ law
enforcement components about their UAS awards, either before or after the
awards were made.

                                      ii
       Moreover, we note that OJP had difficulty confirming to us how many
UAS-related awards it had made.3 OJP reported that in response to our
preliminary inquiries it did not uniformly search its award tracking system,
and as a result it reported to us its UAS research awards but not the awards
it had made to local police departments for UAS acquisition. Only after the
OIG identified two UAS awards to local police departments did OJP perform a
more complete search of its grants system and confirm these two OIG-
identified awards and a third UAS award.

        This interim report provides eight recommendations to DOJ to improve
coordination among law enforcement and award-making components, and to
facilitate the drafting of policies that protect individual privacy interests and
ensure the admissibility of UAS-collected evidence in legal proceedings.




       3
         Because of this difficulty, we believe we cannot rule out the possibility that
additional DOJ grant recipients could have used DOJ funds to purchase UAS.


                                              iii
This page intentionally left blank
   INTERIM REPORT ON THE DEPARTMENT OF JUSTICE’S


   USE AND SUPPORT OF UNMANNED AIRCRAFT SYSTEMS 


                                TABLE OF CONTENTS



INTRODUCTION .................................................................................1 


REGULATORY ENVIRONMENT ............................................................2 


ISSUES REGARDING LAW ENFORCEMENT USE OF UAS ......................3



STATUS OF DOJ UAS LAW ENFORCEMENT PROGRAMS .......................4 


   Active UAS Programs ....................................................................... 5 


   Inactive UAS .................................................................................. 6 


NEED FOR DOJ UAS-SPECIFIC POLICIES ...........................................6 


DOJ UAS GRANT AND COOPERATIVE AGREEMENT AWARDS ............10 


   Grants to Local Law Enforcement Agencies ....................................... 12 


   Cooperative Agreements with Non-Profit Organizations ...................... 13 


NEED FOR ENHANCED COORDINATION AND OVERSIGHT OF


UAS AWARDS...................................................................................15 


RECOMMENDATIONS .......................................................................17 


APPENDIX I: 	 THE OFFICE OF THE DEPUTY ATTORNEY GENERAL’S 

              RESPONSE TO THE DRAFT REPORT ............................19 


APPENDIX II: THE OFFICE OF JUSTICE PROGRAMS’ 

             RESPONSE TO THE DRAFT REPORT ...........................21



APPENDIX III: THE OFFICE OF COMMUNITY ORIENTED 

              POLICING SERVICES’ RESPONSE TO THE DRAFT 

              REPORT ...................................................................26 


APPENDIX IV: OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

             AND SUMMARY OF ACTIONS NECESSARY TO CLOSE 

             THE REPORT .............................................................30 

This page intentionally left blank
   INTERIM REPORT ON THE DEPARTMENT OF JUSTICE’S


   USE AND SUPPORT OF UNMANNED AIRCRAFT SYSTEMS 


       The Department of Justice Office of the Inspector General (OIG) is
conducting an audit of the domestic use of unmanned aircraft systems (UAS)
by the Department of Justice (DOJ), as well as its support and provision of
UAS to other law enforcement agencies and non-profit organizations. UAS
are also commonly referred to as unmanned aerial vehicles (UAV) or
“drones.”4 This interim report presents an overview of DOJ’s UAS use and
policies as of May 2013.

Introduction

      As of May 2013, six DOJ components have acquired UAS or awarded
funds for UAS testing or use, but only the Federal Bureau of Investigation
(FBI) has used UAS to support its mission. The Bureau of Alcohol, Tobacco,
Firearms, and Explosives (ATF) reported to us that it plans to deploy UAS to
support future operations. The Drug Enforcement Administration (DEA) and
the United States Marshals Service (USMS) have acquired UAS for testing
but told us that they have no plans to deploy them operationally. In
addition, the Office of Justice Programs (OJP) and Office of Community
Oriented Policing Services (COPS) have provided funding to local law
enforcement agencies and non-profit organizations to purchase UAS for
testing or use.

       The UAS purchased or funded by the DOJ as of May 2013 have been
what the Federal Aviation Administration (FAA) defines as “small UAS,”
which are UAS weighing up to 55 pounds. Many officials from DOJ, other
federal agencies, and local law enforcement stated that they believed small
UAS can be beneficial for reconnaissance, surveillance, and crime scene
examinations, and that their use eliminates the need to risk the life of a
pilot.

       To obtain information on the acquisition, use, and control of UAS, we
reviewed relevant federal policies and procedures, and we interviewed
officials across the DOJ as well as officials and UAS operators at local and
non-profit organizations that received DOJ UAS awards. We also spoke to
officials at other organizations that we believed have important UAS roles,
responsibilities, or viewpoints regarding law enforcement’s use of UAS


       4
            UAS are remotely piloted aerial vehicles and their associated ground control
stations.




                                                1

technologies.5 Generally, this review covers the period from when the DOJ
began acquiring UAS in 2004 until May 2013.

Regulatory Environment

       The FAA is responsible for establishing rules governing the safety of
the national airspace. The FAA Modernization and Reform Act of 2012 (Act)
requires the FAA to expedite its review of applications from public agencies
to operate UAS and to develop a comprehensive plan to integrate UAS into
the national airspace system.6 Under the Act, the FAA must allow
government public safety agencies to use UAS weighing up to 4.4 pounds so
long as they are deployed: (1) within line of sight of the operator; (2) less
than 400 feet above the ground; (3) during daytime; (4) inside uncontrolled
(Class G) airspace; and (5) more than five miles from any airport or other
location with aviation activities, such as heliports.7 The FAA subsequently
permitted public UAS with weights of up to 25 pounds to operate under the
same conditions.

      Before any public agency can operate a UAS, the FAA requires it to
apply for and receive a Certificate of Waiver or Authorization (COA) from the
FAA. In its application, the public agency must demonstrate the measures it
has taken to enable it to operate the UAS safely. Each COA lasts for up to
2 years and defines the operational conditions, emergency landing
procedures, airworthiness requirements, area of operations, and ground
crew proficiency required to operate the UAS. According to the FAA, these
elements are necessary to ensure that UAS operators will be able to “see
and avoid” other air traffic and be aware of the operating environment while
the UAS is in the air.8 A public agency requesting a COA generally has to
demonstrate that it will have trained line-of-sight visual observers



      5
          Specifically, we spoke with officials from: (1) the FAA’s Unmanned Aircraft
Systems Integration Office and its Office of General Counsel; (2) the Association for
Unmanned Vehicle Systems International, a non-profit organization that seeks to promote
and support unmanned systems and robotics; (3) the International Association of Chiefs of
Police (IACP), a non-profit organization that seeks to improve law enforcement practices
worldwide; and (4) the American Civil Liberties Union, a non-profit organization whose
stated mission is to protect individual rights and liberties.
      6
          49 U.S.C. § 40101 (2012).
      7
         The FAA defines “Class G” airspace as uncontrolled airspace and generally extends
up to 1,200 feet above ground level.
      8
          14 C.F.R. § 91.113 (2012).




                                            2

overseeing the UAS or an “alternate method of compliance” to meet the see-
and-avoid requirement.9

       The FAA may issue an emergency COA to a law enforcement agency to
operate a UAS outside of an approved area. The FAA only issues an
emergency COA if: (1) there is a situation with an extreme possibility of the
loss of life, (2) the proposed UAS already is operating under an approved
COA, and (3) the agency is unable to use a manned aircraft to respond to
the emergency.10 Additionally, although the FAA generally limits UAS use to
less-densely populated areas and during daytime, the FAA may temporarily
amend a COA to allow an agency to operate a UAS in populated areas or at
night so long as the law enforcement agency proposes to mitigate
sufficiently the risk of mid-air collision and injury or property damage on the
ground. For example, an agency may mitigate these risks by restricting
public access to the area of UAS operation while the UAS is in use.

Issues Regarding Law Enforcement Use of UAS

      Small UAS provide an attractive alternative to law enforcement
agencies seeking to establish or augment their aviation capabilities because
small UAS have much lower operational and maintenance costs than the
manned aircraft typically used by law enforcement. One local law
enforcement agency has estimated the cost of using a UAS at just $25 per
hour compared to $650 per hour for a manned aircraft. In addition, UAS
capabilities and supporting technologies are improving. UAS power systems
are providing longer flight times, and UAS are being equipped with smaller,
more versatile cameras capable of taking both optical and infrared images.

      UAS technology improvements and their reduced costs have resulted
in questions being raised regarding the potential for routine law enforcement
use of UAS and the implications of such use on privacy rights. As of May
2013, Congress has held several hearings and invited testimony from UAS
developers, law enforcement users, privacy advocates, and academic
experts regarding the proper use and oversight of UAS within the United


       9
         Such alternate methods may include some combinations of ground-based radar,
on-board cameras, or collision-avoidance sensors instead of line-of-sight visual observers.
The FAA evaluates alternate methods of compliance for risk on a case-by-case basis. See
the Federal Aviation Administration Interim Operational Approval Guidance 08-01
(March 2008).
       10
          See U.S. Department of Transportation, Federal Aviation Administration, Notice of
National Policy, N 8900.207, Unmanned Aircraft Systems (UAS) Operational Approval,
section 8.h, January 22, 2013.




                                             3

States. Further, many state legislatures and local municipalities have
considered or are considering, and some have passed, legislation limiting the
use of UAS by law enforcement. For example, at least three states require
law enforcement to obtain a search warrant before using a UAS for
surveillance and one state has imposed a 2-year moratorium on UAS use
except in the cases of imminent loss of life.11

      In September 2012, the Government Accountability Office (GAO)
found that federal agencies as a whole have not addressed important UAS
privacy concerns, specifically how data captured by UAS will be used and
protected by federal law enforcement agencies.12 The report stated that by
not working proactively to address these issues, federal agencies, including
DOJ, risk further delaying the integration of UAS into the national airspace
system. GAO recommended that DOJ, along with the U.S. Department of
Homeland Security (DHS), initiate discussions with the FAA to explore
whether actions should be taken to guide the collection and use of UAS-
acquired data. We found that, as of May 2013, DOJ had not taken steps to
address this recommendation.

Status of DOJ UAS Law Enforcement Programs

      From 2004 to May 2013, DOJ law enforcement components reported
spending in total approximately $3.7 million on small UAS.13 Specifically, the
FBI spent over $3 million on UAS (or over 80 percent of the total DOJ
amount spent on UAS), while the ATF spent almost $600,000, the USMS
spent $75,000, and the DEA acquired UAS from another federal agency for
testing at no cost. As of May 2013, the FBI and ATF had active UAS




       11
          The states of Florida, Idaho, and Tennessee require that law enforcement
agencies obtain a search warrant before using UAS for surveillance. In April 2013, the
Commonwealth of Virginia enacted a 2-year moratorium on UAS use except in cases of
imminent loss of life. There are many other state legislatures and municipalities that are
considering proposed bills, and therefore, state and local laws in this area change
frequently.
       12
          U.S. Government Accountability Office, Unmanned Aircraft Systems: Measuring
Progress and Addressing Potential Privacy Concerns Would Facilitate Integration into the
National Airspace System, GAO-12-981 (September 2012).
       13
          Total expenditures associated with UAS acquisition include costs for: (1) the
vehicle(s); (2) mission payloads; (3) ground control station; (4) control and data links; and
(5) manufacturer-provided training.




                                              4

programs, while the DEA and USMS stated that they have no plans to use
UAS.14

Active UAS Programs

       The FBI has been deploying UAS to support their operations since
2006. ATF began researching and testing UAS in 2011 and told us that it is
ready to deploy them if necessary through emergency COAs. According to
officials in both components, UAS offer unique law enforcement capabilities
required by their investigations. For example, UAS operators told us that
UAS video and imagery equipment augment reconnaissance and surveillance
assignments, tactical operations, and crime scene examinations.
Furthermore, officials told us UAS can be a useful and time-saving tool for
missing persons cases and in disaster situations. DOJ officials told us that
none of their UAS are armed or carry releasable projectiles.

      As of May 2013, both the FBI and ATF had established program offices
responsible for maintaining and securing UAS. The program offices also
ensure that UAS are readily deployable for training or support missions.
Both have implemented component-level procedures guiding how to approve
and track internal requests for UAS support in the field. Specifically, both
components require that special agents first obtain approval for surveillance
from a supervisor and submit a written request to the component-level UAS
program office. If the program office approves the request, it must then
obtain an appropriate emergency COA or other FAA approval prior to
deploying the UAS.

      The FBI reported that it had used UAS in very limited circumstances to
support operations where there was a specific operational need. For
example, the FBI used a UAS in January 2013 during a hostage crisis in
Midland City, Alabama. We reviewed available records at the FBI and ATF
pertaining to UAS training conducted by both components and the
operational missions conducted by the FBI under these procedures. We
found that, based on these records, the FBI and ATF appeared to operate
UAS only after obtaining the required approvals, including FAA-approved
COAs or emergency COAs.




       14
         In addition to DOJ’s internal UAS use, DHS has reported that it has operated its
UAS on two occasions to assist DOJ law enforcement components.




                                             5

Inactive UAS

       Officials at DEA and USMS stated that they had obtained UAS for
testing, but due to UAS regulatory limitations (such as the prohibition on
flights near airports and in densely populated areas) as well as mechanical
limitations (such as limited battery life and data link range), they did not
believe UAS provided an additional benefit to their missions.15 As a result,
these components have decided not to deploy UAS in support of operations.
The DEA stated that it plans to transfer its unused UAS to the DHS while the
USMS stated that it plans to excess the UAS by destruction because its UAS
are obsolete and no longer operable.

Need for DOJ UAS-Specific Policies

        The FBI and ATF have developed or are developing their own standard
operating procedures governing UAS. We obtained copies of these
procedures and found that they define specific roles and responsibilities for
the UAS flight team.16 In addition, the procedures provide pre- and post-
flight instructions that outline what the flight team should do prior to and
after flight. Both procedures require that the flight team receive approval
from officials responsible for completing COAs and notify the FAA of the
flight.

      With regard to potential privacy concerns stemming from UAS
operations, officials at both the FBI and ATF stated that they did not believe
there was any practical difference between how a UAS collects evidence as
compared to a manned aircraft. The FBI stated that the aerial surveillance
provisions of its Domestic Investigations and Operations Guide and other
aviation policies govern how agents use UAS.17 These guidelines require that
agents request supervisory approval before conducting any aerial
surveillance and comply with aviation laws and policies. As of May 2013, the
ATF stated that it was developing a standard operational checklist to guide
how pilots should conduct UAS flights. As such, these officials did not


       15
          Some UAS models require that operators be as close as a mile from the device
during operation and that current FAA regulations generally exclude UAS operations in most
urban areas.
       16
           At a minimum, the FAA requires that UAS flight teams must be comprised of a
certified pilot and an observer.
       17
          According to the FBI, in early June 2013, it began developing and reviewing an
Aviation Policy Implementation Guide. In addition, the FBI reported that its Office of the
General Counsel is also conducting a privacy review of the use of UAS.




                                              6

believe that there was a need to develop additional privacy protocols for
UAS.

       Considering the low operational cost of UAS compared to manned
aircraft, privacy advocates have expressed concern that non-emergency UAS
use could quickly transform into routine or broader evidence-gathering
activities. Moreover, the International Association of Chiefs of Police (IACP)
has encouraged law enforcement agencies to implement UAS-specific
policies and procedures to address privacy concerns as a way to increase
public support for UAS use. In August 2012, the IACP published a report
entitled Recommended Guidelines for the Use of Unmanned Aircraft for law
enforcement agencies that are contemplating using UAS. An IACP official
told us that it developed the guidelines in part to balance the enhanced
surveillance capabilities of UAS with privacy concerns. The IACP report
included 10 key recommendations for law enforcement agencies to consider
as a basis for enhancing their own UAS operational internal controls and
image retention policies. These IACP recommendations are shown in
Exhibit 1.

           EXHIBIT 1: IACP RECOMMENDED GUIDELINES FOR 

         UAS OPERATIONAL CONTROLS AND IMAGE RETENTION



 1. Obtain a COA as necessary from the FAA before operating a UAS.
 2. UAS may only be operated by trained and certified personnel. Such personnel
    also receive training in proper use of UAS.
 3. All UAS flights should be (1) approved by a supervisor and (2) for a legitimate
    public safety mission, training, or demonstration purpose.
 4. The purposes, times, and supervisory approvals of all UAS flights will be
    documented.
 5. A supervisory or third-party review of UAS documents at regular intervals and
    document review results to ensure compliance with agency UAS procedures.
 6. Defined consequences for employees who use UAS outside of agency policies.
 7. Except in cases where officer safety might be jeopardized, agencies should notify
    people in the vicinity of UAS flights to enhance public safety and assistance.
 8. Obtain a search warrant prior to flight when the UAS will be used to collect
    evidence of criminal wrongdoing and if the operating UAS will intrude upon
    reasonable expectations of privacy.
 9. Images captured by UAS should not be retained unless required for evidence of a
    crime, an on-going investigation, training, or required by law.
10. Retained images should be available for public inspection unless exempt by law.
Source: 	 IACP Recommended Guidelines for the Use of Unmanned Aircraft, August 2012, as
          summarized by OIG.




                                          7
      As suggested by the IACP guidelines, the surveillance policy the FBI
has applied to UAS requires the FBI to obtain a warrant if the surveillance
would intrude on an individual’s reasonable expectation of privacy,
consistent with Fourth Amendment protections against unreasonable search
and seizure. In finalizing its UAS guidelines, ATF has told us that it plans to
apply the same warrant threshold to UAS as to any other investigation.

       A consistent policy specific to UAS, however, may be merited in light of
the trending technological capabilities of UAS in order to guide their proper
and safe use in circumstances unanticipated by existing policies. For
example, although investigators generally do not need to obtain search
warrants for surveillance of areas outside of a home, the area surrounding a
residence, called the curtilage, presents a possible exception.18 The unique
capability of small UAS to maneuver effectively yet covertly in the curtilage
distinguishes such devices from manned aircraft. When DOJ law
enforcement components use UAS to perform surveillance in areas where
individual expectations of privacy are not clear or well-defined, more explicit
guidelines specific to UAS could provide appropriate protection of individual
privacy interests and ensure the admissibility of UAS-acquired evidence in
court proceedings.

      Similarly, as power systems for UAS improve, UAS surveillance will be
capable of extended flight times of several hours or even days at a time, far
beyond the capabilities of manned aircraft. Such a capability could permit
law enforcement to conduct pervasive tracking of an individual’s
movements, which could have legal implications whether the tracking was
performed on private or public property.19



       18
          Law enforcement is required to consider four factors to ascertain whether activity
occurring in the curtilage constitutes a search and therefore requires a warrant: (1) the
proximity of the area to the home, (2) whether the area is within an enclosure surrounding
the home, (3) the nature of the use to which the area is put, and (4) any steps taken to
protect the area from observations from passers-by. See United States v. Dunn, 480 U.S.
294, 301 (1987).
       19
           The U.S. Supreme Court held in 2012 that a law enforcement agency’s installation
of a global positioning system (GPS) on a vehicle and its use of the GPS to monitor the
vehicle’s movements constituted a search and therefore required that the law enforcement
agency obtain a warrant to engage in such monitoring. See United States v. Jones, 565
U.S. ___, 132 S. Ct. 945 (2012). In addition, while not the holding of the Court, concurring
opinions in this case expressed the view that monitoring or surveillance of a person’s
movements by GPS, even while the person is in public, may impinge on societal
expectations of privacy.




                                             8

      The FBI has been and is currently using UAS and is drafting
component-level UAS policies. In addition, although the ATF is not yet using
UAS, it has taken steps towards using them, including contacting the FAA to
obtain COAs. Moreover, we learned that the National Institute of Justice
(NIJ) in the Office of Justice Programs (OJP) has been working with the FAA
to expand state and local law enforcement UAS use over a wider-number of
areas.

       We believe the Office of the Deputy Attorney General (ODAG), which
has responsibility within DOJ for formulating cross-component law
enforcement policies, should consider the need for a DOJ-wide policy
regarding UAS use in areas and ways that could have significant privacy or
other legal implications. We therefore recommend that ODAG convene a
working group comprised of DOJ components using or with an interest in
using UAS to: (1) determine whether UAS capabilities are sufficiently
distinct from those of manned aircraft that they require a specific DOJ-level
policy to address privacy and legal concerns; and (2) identify and address
UAS policy concerns that are shared across components or require
coordination among components and other federal agencies. We believe
that any such working group should include the DOJ Office of Privacy and
Civil Liberties, which is responsible for developing legal guidance to help
ensure compliance with privacy laws, regulations, and policies.

       Further, we believe DOJ needs to promptly address the September
2012 GAO report recommendation that DOJ explore with the FAA and DHS
whether actions should be taken to guide the collection and use of UAS-
acquired data. We found that as of May 2013, DOJ had not taken steps to
address this recommendation. By contrast, since 2009 and at the direction
of Congress, the FAA and the Department of Defense have convened a task
force with other federal agencies referred to as the UAS Executive
Committee.20 As of May 2013, DOJ was not a member of this committee.
We recommend that ODAG consider whether to solicit DOJ’s admission to
this committee so that DOJ can be involved in formal discussions with other
Executive Branch agencies regarding UAS issues.




      20
          Congress mandated the Department of Defense and Department of Transportation
develop a plan for expanded access into the national airspace for UAS in consultation with
DHS. Pub. L. No. 111-84, § 935 (2009). The result of this legislation was the formation of
the Executive Committee.




                                            9

DOJ UAS Grant and Cooperative Agreement Awards

      As of May 2013, two DOJ components – OJP and COPS – have made
awards to at least seven local police departments and non-profit
organizations that in part supported UAS acquisition, research, and
deployment. Within OJP, two separate bureaus had made awards involving
UAS: the Bureau of Justice Assistance (BJA) and the National Institute of
Justice (NIJ). As shown by Exhibit 2, the seven award recipients reported
spending $1.2 million to purchase, research, and test UAS, or almost 5
percent of the total $27 million provided by these awards.21




       21
           Some of the awards funded additional research or law enforcement initiatives.
For example, the Gadsden Police Department’s award was part of COPS’ 2007 national anti-
methamphetamine initiative and Eastern Kentucky University’s award also supported
additional law enforcement initiatives in rural areas of which UAS constituted a small part.




                                            10 

         EXHIBIT 2: IDENTIFIED DOJ UAS AWARDS, 2001-2013 


                                                                              Estimated
                                                                                 UAS-
                                                                               Related
 Awarding                            Award          Award         Total         Costs*
Component        Recipient           Period          Type       Award ($)         ($)
OJP/NIJ   Eastern Kentucky          7/2001 to
                                                  Cooperative
          University, Richmond,      2/2008                      13,306,560       200,000
                                                  Agreement
          Kentucky
OJP/NIJ   The Sheriffs’             7/2006 to
                                                  Cooperative
          Association of Texas,      9/2011                       5,244,642       405,000
                                                  Agreement
          Austin, Texas**
OJP/NIJ   The Center for Rural       10/2009
                                                  Cooperative
          Development, Hazard,      to 9/2013                     7,220,614       280,000
                                                  Agreement
          Kentucky
COPS      Gadsden (Alabama)         9/2007 to
                                                    Grant           446,165       150,000
          Police Department          2/2011
OJP/BJA   Miami-Dade (Florida)      9/2007 to
                                                    Grant           150,000       150,000
          Police Department          8/2009
OJP/BJA   North Little Rock          10/2007
          (Arkansas) Police             to          Grant
                                                                    330,000        84,334
          Department                 12/2009
OJP/BJA   San Mateo County          9/2007 to
          (California) Sheriff’s      8/2009        Grant
                                                                    150,000         N/A***
          Office
                                                        TOTALS $26,847,981 $1,269,334
Source: OJP, COPS, and award recipients
Notes:
 *		
      UAS-related costs are estimated based on approved budgets or reports from the
      awarding agency or award recipient. UAS purchases may have comprised only a part of
      the award recipient’s total UAS program costs and the reported expenditures may also
      include training, travel, and other program-related support costs.
 **		
      The Sheriffs’ Association of Texas received two awards under different funding


      initiatives.


 ***
      San Mateo County Sheriff’s Office’s UAS award was deobligated and not used to


      purchase a UAS or otherwise support UAS activities. 


        We note that OJP appeared to have difficulty identifying the above BJA
 UAS awards. When we initially spoke with OJP officials, they told us BJA had
 not funded UAS. However, our review of FAA-approved COAs, public source
 information, and contacts with local police department officials identified the
 awards to the police departments of Miami-Dade County, Florida and North
 Little Rock, Arkansas. Only after notifying OJP and BJA of this information
 was BJA able to confirm these UAS awards. Four months after our initial
 UAS award inquiry, OJP identified another BJA grant that was made in 2007
 to the San Mateo County (California) Sheriff’s Office solely for the purchase
 of a UAS. BJA stated it did not initially identify these awards because it had
 only searched its largest grant program for UAS awards. In addition, BJA



                                           11 

did not use a standardized term for UAS technology that would quickly
identify all UAS awards in its Grants Management System. As a result, we
believe we cannot rule out the possibility that additional awardees may have
been provided DOJ funds to acquire or deploy UAS. We therefore
recommend that OJP assess and enhance its ability to track UAS-related
awards to ensure that it can readily identify how DOJ award funds have been
used to support UAS technology.

       Although COPS reports that it does not plan to award funds to state
and local police for UAS acquisition, it has announced a $250,000 award to
develop UAS surveillance guidelines to assist local law enforcement
agencies.22 This COPS-funded initiative will use focus groups to examine the
benefits and challenges of local law enforcement use of UAS. COPS intends
that the final deliverable for this award will be a toolkit or guidebook that
local law enforcement agencies can use to implement their UAS programs.
Because it also has plans to provide at least one future UAS-related award,
we recommend that COPS review its award tracking system to ensure that
this and any other future UAS award will be tracked accurately and
expeditiously.

Grants to Local Law Enforcement Agencies

      According to DOJ award documents, the purpose of the Gadsden,
Alabama and the North Little Rock, Arkansas grants was to help fund larger
DOJ-supported crime initiatives and UAS acquisition was not a disallowed
cost under the terms of the awards. The awards to Miami-Dade, Florida,
and San Mateo, California, were provided solely to purchase and evaluate
UAS for use in the field. We spoke to officials at these local police
departments to discuss how the UAS they acquired helped to further the
respective purpose of each grant.

      Gadsden Police Department spent $150,000 on UAS-related costs with
funds from a 2007 COPS grant to enhance community policing efforts
focused on stopping the spread of methamphetamine. In 2009, it attempted
to use the UAS to perform one surveillance mission. However, Gadsden
Police Department officials stated that during the mission the ground control
station lost communication with the UAS, causing the UAS to collide with a
tree. Officials told us that they believe that the rugged topography (hills and
valleys) of the mission area led to the communication problem. According to


       22
           The solicitation was open to all public government agencies, profit and nonprofit
institutions, universities, community groups, and faith-based organizations. COPS
anticipates making an award by September 2013.




                                             12 

the FAA, the Gadsden Police Department did not obtain the required COA
prior to its mission. The Gadsden Police Department reports that it has kept
the UAS in a secured storage facility since that time, and that it has yet to
determine whether or how it will use its UAS in the future.

       An official with the North Little Rock Police Department stated that it
spent $84,000 to purchase a UAS in 2008 from a BJA grant specifically to
perform aerial surveillance over high-risk drug and gun crime areas. The
BJA approved the UAS purchase as part of a larger award for other
equipment (such as software and communications devices). North Little
Rock received a training COA and began testing the device over a limited
area just outside of their jurisdiction. A North Little Rock official told us that,
as of May 2013, the UAS had not been used for law enforcement-related
activities, but North Little Rock Police Department is evaluating the use of
UAS technology for future surveillance.

       In September 2007, the Miami-Dade Police Department and the San
Mateo County Sheriff’s Office each received a BJA grant for $150,000 with
the sole purpose of purchasing a UAS. Both of these were non-competitive
awards directed by the Office of the Assistant Attorney General for OJP. The
objective of both awards was to test how local law enforcement agencies
could use UAS to address high-risk situations in heavily populated areas.
Miami-Dade officials confirmed that they used the award to purchase and
test the UAS. After the award period ended, Miami-Dade received an
operational COA from the FAA to use the UAS only within a defined
perimeter of a crime scene, such as a hostage crisis. However, as of May
2013, Miami-Dade reports it has not used the UAS operationally. With
regard to the award to San Mateo County Sheriff’s Office, we found that BJA
subsequently deobligated the funds because the recipient decided not to
purchase a UAS.

Cooperative Agreements with Non-Profit Organizations

     The NIJ is a research, development, and evaluation branch for DOJ.
The NIJ’s Office of Science and Technology has established an Aviation
Technology Program in part to research and evaluate UAS.23 As discussed
below, since 2003, the NIJ has established cooperative agreements for UAS



       23
          In addition to researching UAS, the Aviation Technology Program is also
responsible for determining whether lower cost aircraft can cost effectively enhance law
enforcement work, evaluating operational aspects of low cost aircraft, and identifying and
developing new aviation technology.




                                            13 

research with three non-profit organizations.24 An objective of each
agreement was to assess how UAS, as low-cost aviation alternatives, could
be used by smaller non-federal law enforcement agencies.

      In 2003, NIJ provided a supplement to an earlier cooperative
agreement with Eastern Kentucky University in Richmond, Kentucky, to
begin evaluating the feasibility of unmanned aerial technology use by rural
law enforcement. The NIJ estimates that the university spent $200,000 on
UAS-related costs working with other institutions to develop an early UAS
prototype and software to control the UAS, and performed limited field
testing. The agreement with Eastern Kentucky University ended in February
2008 and, as of May 2013, the most recent NIJ UAS awardee, the Center for
Rural Development (the Center) in Somerset, Kentucky, has custody of the
UAS prototype developed under this award.

       In 2006 and 2009, the NIJ awarded cooperative agreements to the
Sheriffs’ Association of Texas (Sheriffs’ Association) to evaluate different
types of low-cost aviation technologies. Under these agreements, the NIJ
estimates that the Sheriffs’ Association spent $405,000 on UAS-related
costs. The Sheriffs’ Association served as a repository for different types of
manned and unmanned aviation equipment – including a small UAS – so
that local law enforcement agencies could receive and test the equipment.
The agreement with the Sheriffs’ Association ended in September 2011. As
discussed below, the Sheriffs’ Association transferred the UAS to the Center.

      In 2011, the NIJ amended a larger 2009 cooperative agreement with
the Center to include evaluating low-cost aviation solutions for local law
enforcement agencies. The NIJ estimates that the Center spent $280,000
on UAS-related costs. The agreement also supported UAS training and
demonstrations using the UAS assets transferred from prior NIJ UAS award
recipients Eastern Kentucky University and the Sheriffs’ Association.
Additionally, the Center has helped the NIJ test and demonstrate a DHS UAS
with the Queen Anne’s County Office of the Sheriff in Grasonville,
Maryland.25



      24
          According to OJP, cooperative agreements are distinct from grants in that
cooperative agreements are used whenever the awarding agency intends to be substantially
involved with the recipient during performance of the supported activity.
      25
         The NIJ has received three UAS from DHS at no cost. The additional UAS models
have been tested at the Naval Air Station Patuxent River in Maryland. Because these UAS
were operated in military airspace, no COAs were required. The NIJ returned one UAS to
DHS and plans to transfer the other UAS to two state and local law enforcement agencies.




                                           14 

       The Center has also worked with the NIJ to negotiate an agreement
with the FAA to streamline the state and local law enforcement agency COA
process. Under the agreement, the requesting agency will still need to
demonstrate that it will operate the UAS safely and proficiently. However,
after receiving an operational COA, state and local law enforcement agencies
will be able to deploy UAS throughout their jurisdiction quickly without
additional FAA approvals. Furthermore, the NIJ will establish a process by
which it will collect and share UAS training and operational mission data by
law enforcement. The FAA and NIJ signed this agreement in March 2013.
The NIJ expects that this agreement will help expedite the COA application
process and the FAA anticipates increased UAS use by law enforcement.

Need for Enhanced Coordination and Oversight of UAS Awards

       Like other DOJ grant recipients, the UAS awardees were subject to
general administrative and financial requirements, such as the submission of
semi-annual performance activity reports. COPS and BJA officials stated
that its awards largely pre-dated the significant public interest in domestic
UAS use and therefore both components treated UAS purchases in the same
manner as they would have treated the purchase of other law enforcement
equipment. The objectives of the UAS awards did not require that recipients
report the type of UAS models acquired, how many times and when they
used or tested UAS, any problems encountered during operation, what type
of data was collected, how collected data was safeguarded and used, or
other similarly specific information pertaining to UAS operations and testing.
Without requiring the reporting of such information, neither COPS nor OJP
was positioned to acquire uniform UAS data needed to identify specific
issues local law enforcement may encounter while using UAS funded through
current or future grant awards. Therefore, we recommend that OJP and
COPS establish enhanced reporting requirements and use reported
information to measure the effectiveness of their UAS awards. These
enhancements could include information such as: (1) the specific UAS
models acquired, (2) the frequency and manner with which the recipient
used or tested UAS, (3) what type of data was collected by UAS and whether
the recipient had UAS-specific policies, (4) how collected data was used in
an investigation and subsequently safeguarded, and (5) other concerns or
best practices identified by the recipient that pertain to UAS operations and
testing.

       Moreover, we found that the UAS awards did not stipulate
prerequisites necessary to ensure proper controls over the use of DOJ funds,
such as requiring that recipients receive COAs or confirm that UAS use was
legal in their jurisdiction. Without such controls, we believe there is a risk
that applying agencies may receive UAS awards, but will be unable to use a


                                     15 

UAS. If the recipient is unable to obtain a COA or cannot legally operate a
UAS, taxpayer funds used to purchase it are wasted as the UAS remains in
storage and becomes obsolete. Accordingly, we recommend that OJP and
COPS require that grant applicants demonstrate that they can meet the
necessary prerequisites to become authorized to operate a UAS.

       In December 2012, BJA and COPS entered into a Memorandum of
Understanding to improve collaboration and information sharing for FY 2012
grants. The memorandum notes that both agencies make awards to the
same group of recipients (state and local law enforcement agencies) and
emphasizes the importance that BJA and COPS work together to mitigate the
risk of making duplicative or unnecessary awards. The memorandum
establishes a meeting calendar for BJA and COPS to identify and discuss
related award projects and solicitations. BJA and COPS both report that UAS
awards are a topic about which they are coordinating under this agreement.

       We note, however, that the December 2012 agreement does not
explicitly include NIJ as a member of this collaborative effort. While BJA has
provided documents to us that evidence that NIJ has participated in grant
coordination meetings, to mitigate the risk of wasting taxpayer funds by
performing unnecessarily redundant UAS testing and policy development, we
believe that the memorandum should be updated to formalize NIJ’s
participation. NIJ’s formal involvement will also help facilitate cooperation
between grant recipients testing UAS. We therefore recommend that OJP
and COPS update the December 2012 award coordination memorandum to
ensure that NIJ is included as a participant in UAS award coordination
efforts.

       Although UAS supported by DOJ award funds may have the potential
to assist federal law enforcement surveillance efforts, it is also possible that
the uncoordinated use of local UAS could interfere with federal surveillance.
For example, there exists a risk that a local law enforcement agency could
use a DOJ-funded UAS in a way that could inadvertently make a subject of
federal monitoring aware that they are under surveillance. We found no
evidence that OJP or COPS coordinated with or notified DOJ law enforcement
components (FBI, DEA, USMS, and ATF) about UAS awards, either before or
after the awards were made.26 Providing notice to relevant federal law
enforcement personnel that DOJ-funded UAS will be available in their
locations will afford DOJ law enforcement components the knowledge of the


       26
         According to USMS, personnel in its Eastern District of Arkansas office became
aware that North Little Rock had received a UAS, but not as a result of coordination with
OJP.




                                             16 

UAS’ existence, thereby affording opportunities to coordinate the use of the
UAS and avoid potential conflicts.

        Enhanced coordination would also provide an important opportunity for
OJP and COPS to keep DOJ law enforcement components aware of DOJ-
funded UAS activity at the local police department level. We therefore
recommend that OJP and COPS notify the FBI, ATF, DEA, and USMS of
future UAS awards and work with these components to identify and share
relevant data derived from UAS projects funded with DOJ awards. Such an
initiative should leverage NIJ’s responsibility to collect similar UAS data
under the March 2013 COA agreement with the FAA, allow components to
share their expertise with UAS award recipients, and provide a venue for
DOJ to receive feedback on law enforcement needs to ensure that DOJ-
funded local use of UAS does not affect ongoing DOJ law enforcement
initiatives.

Recommendations

     We recommend that ODAG:

     1.		   Convene a working group comprised of DOJ components using or
            with an interest in using UAS to: (1) determine whether UAS
            capabilities are sufficiently distinct from those of manned aircraft
            that they require a specific DOJ-level policy to address privacy
            and legal concerns; and (2) identify and address UAS policy
            concerns that are shared across components or require
            coordination among components and other federal agencies.

     2.		   Consider whether to solicit DOJ’s admission to the UAS Executive
            Committee so that DOJ can be involved in formal discussions
            with other Executive Branch agencies regarding UAS issues.

     We recommend that OJP:

     3.		   Assess and enhance its ability to track UAS-related awards to
            ensure that it can readily identify how DOJ award funds have
            been used to support UAS technology.

     We recommend that COPS:

     4.		   Review its award tracking system to ensure that this and any
            other future UAS award will be tracked accurately and
            expeditiously.



                                      17 

We recommend that OJP and COPS:

5.		   Establish enhanced reporting requirements and use reported
       information to measure the effectiveness of their UAS awards.

6.		   Require that grant applicants demonstrate that they can meet
       the prerequisites necessary to become authorized to operate a
       UAS.

7.		   Update the December 2012 award coordination memorandum to
       ensure that NIJ is included as a participant in UAS award
       coordination efforts.

8.		   Notify the FBI, ATF, DEA, and USMS of future UAS awards and
       work with these components to identify and share relevant data
       derived from UAS projects funded with DOJ awards.




                               18 

                                                                                       APPENDIX I

        THE OFFICE OF THE DEPUTY ATTORNEY GENERAL’S RESPONSE
                         TO THE DRAFT REPORT 



                                                         U.S. Department of Justice

                                                         Office of the Deputy Attorney General




                                                     Washington, D.C. 20530



                                                     September 26, 2013

MEMORANDUM

TO:            RAYMOND J. BEAUDET
               ASSISTANT INSPECTOR GENERAL FOR AUDIT

FROM:          TRISHA B. ANDERSON
               SENIOR COUNSEL TO THE DEPUTY ATTORNEY GENERAL

SUBJECT:       RESPONSE TO DRAFT INTERIM REPORT ON THE DEPARTMENT OF
               JUSTICE’S USE AND SUPPORT OF UNMANNED AIRCRAFT SYSTEMS

      This memorandum provides a response on behalf of the Office of the Deputy Attorney General
 (ODAG) to the Office of the Inspector General’s September 6, 2013 draft audit report titled, “Interim
 Report on the Department’s Use and Support of Unmanned Aircraft Systems.” Thank you for the
 opportunity to comment on the draft report’s recommendations. Below is our response to the two
 recommendations that pertain to ODAG.

Recommendation 1: Convene a working group comprised of DOJ components using or with an
interest in using UAS to: (1) determine whether UAS capabilities are sufficiently distinct from
those of manned aircraft that they require a specific DOJ-level policy to address privacy and
legal concerns; and (2) identify and address UAS policy concerns that are shared across
components or require coordination among components and other federal agencies.

        ODAG agrees with this recommendation. In August 2013, ODAG directed the Office of
Legal Policy (OLP) to convene a working group composed of a broad range of DOJ components,
including the Office of Privacy and Civil Liberties, to identify and address any policy and legal issues
pertaining to the use of UAS for surveillance purposes. This working group will make a
recommendation to DOJ leadership on the need for any DOJ policies or guidance specific to UAS, and
will work to develop any such policies or guidance as needed. We will notify your office once the




                                                  19 

internal DOJ working group has reached a conclusion about the need for any DOJ policies or guidance
specific to UAS.

         DOJ is also participating in an interagency process that is considering UAS-related policy issues
that are shared across departments and agencies. We believe DOJ’s participation in that interagency
process will satisfy OIG’s recommendation that DOJ identify and address UAS policy concerns that are
shared between DOJ and other agencies.

 Recommendation 2: Consider whether to solicit DOJ’s admission to the UAS Executive
 Committee so that DOJ can be involved in formal discussions with other Executive Branch
 agencies regarding UAS issues.

        ODAG agrees with the recommendation insofar as it asks DOJ to consider participating in formal
interagency discussions with other Executive Branch agencies regarding UAS issues. DOJ has begun
participating in the interagency process described above, which will entail formal discussions with other
departments and agencies about a range of issues related to UAS use.

        We believe this recommendation has been satisfied and request that it be closed.

       Please contact me or Mark Michalic at (202) 514-2101 if you have any questions about our
response.




                                                    20 

                                                                                    APPENDIX II

       THE OFFICE OF JUSTICE PROGRAMS’ RESPONSE TO THE DRAFT
                               REPORT 



                                                     U.S. Department of Justice

                                                     Office of Justice Programs




                                                    Washington, D.C. 20531




 September 16, 2013


 MEMORANDUM TO:                Michael E. Horowitz
                               Inspector General
                               United States Department of Justice

 THROUGH:                      Raymond J. Beaudet
                               Assistant Inspector General for Audit
                               Office of the Inspector General
                               United States Department of Justice

 FROM:                         Karol V. Mason
                               Assistant Attorney General

 SUBJECT:                      Response to the Office of the Inspector General’s Draft Audit
                               Report, Interim Report on the Department's Use and Support
                               of Unmanned Aircraft Systems

This memorandum provides a response to the Office of the Inspector General’s (OIG’s)
September 6, 2013 draft audit report, entitled Interim Report on the Department's Use and Support of
Unmanned Aircraft Systems. The Office of Justice Programs (OJP) appreciates the opportunity to
review and comment on the draft report.

The draft audit report contains eight recommendations, of which Recommendation Numbers 3 and 5-8
pertain to OJP. For ease of review, these recommendations are restated in bold and are followed by
OJP’s response.

 3.    We recommend that OJP assess and enhance its ability to track UAS-related awards to
       ensure that it can readily identify how DOJ award funds have been used to support UAS
       technology.



                                                 21 

     The Office of Justice Programs agrees with the recommendation. In March 2013, OJP added
     three unique project identifiers to its Grants Management System (GMS) to enhance its ability
     to track Unmanned Aircraft Systems (UAS)-related awards (see Attachment 1). The new
     project identifiers include unmanned aerial vehicle, unmanned aircraft, and unmanned aircraft
     system. This will allow OJP bureaus and program offices to select the identifiers by grant, as
     appropriate, during the award process. Individual grant files will include the descriptor(s),
     which permits the grant to be readily identified using key word searches. Key word searches of
     GMS also examine text in the solicitation title, project title, and project description sections. In
     addition to using the project identifier feature and conducting key word searches of GMS data,
     the Bureau of Justice Assistance (BJA) can access UAS-related awards through its Performance
     Measurement Tool (PMT). The Office of Justice Programs requests closure of this
     recommendation and requests written acceptance of this action from your office.

5.   We recommend that OJP and COPS establish enhanced reporting requirements and use
     reported information to measure the effectiveness of their UAS awards.

     The Office of Justice Programs agrees with the recommendation. OJP currently requires a
     programmatic progress report that outlines project activities throughout the project period for
     all grants and cooperative agreements. Additionally, beginning with the fiscal year (FY) 2013
     cycle, all grants awarded under the Edward Byrne Memorial Justice Assistance Grant (JAG)
     Programs (State and Local), will include the special condition noted below (see Attachment 2).

             Unmanned Aircraft, Aircraft Systems, or Aerial Vehicles (UA/UAS/UAV)

             “No JAG funds may be expended on unmanned aircraft, unmanned aircraft systems, or
             aerial vehicles (US, UAS, or UAV) unless the BJA Director certifies that extraordinary
             and exigent circumstances exist, making them essential to the maintenance of public
             safety and good order. Additionally, any JAG funding approved for this purpose would
             be subject to additional reporting, which would be stipulated by BJA post-award.”

     None of the FY 2013 JAG applications processed by BJA requested funds for
     UAS-related purposes (see Attachment 3). However, BJA will review the existing JAG
     performance measures to determine if additional questions, related to UAS technology, can be
     added in the PMT to collect data on the effectiveness of such purchases awarded under future
     grants.

     Further, OJP’s National Institute of Justice (NIJ) already establishes performance and
     evaluation criteria as part of its UAS-related awards, with the results of that research being
     disseminated to the criminal justice community. The Office of Justice Programs considers this
     recommendation resolved and requests written acceptance of this action from your office.

6.   We recommend that OJP and COPS require that grant applicants demonstrate that they
     can meet the prerequisites necessary to become authorized to operate a UAS.

     The Office of Justice Programs agrees with the recommendation. BJA included language in its
     FY 2013 JAG solicitations notifying applicants that no JAG funds may be expended on UAS-
     related technology unless the BJA Director certifies that extraordinary and exigent




                                                  22 

     circumstances exist, making these items essential to the maintenance of public safety and good
     order. BJA will require the grantee to demonstrate their ability to meet all relevant
     prerequisites within this justification. The FY 2013 State JAG program solicitation can be
     found at https://www.bja.gov/Funding/13JAGStateSol.pdf, see page 5; and the FY 2013 Local
     JAG solicitation can be found at https://www.bja.gov/Funding/13JAGLocalSol.pdf, see page 5.
     Additionally, in May 2013, BJA updated its “Frequently Asked Questions,” which are posted
     on its website at https://www.bja.gov/Funding/JAGFAQ.pdf, with information on the
     Unmanned Aircraft, Aircraft Systems, or Aerial Vehicles requirement for the JAG program.

     If any future JAG award funds are budgeted for UAS-related projects, an additional special
     condition, to verify the prerequisites necessary to become authorized to operate the UAS, will
     be added to the award. Additionally, as part of its programmatic monitoring, BJA grant
     managers will review these requirements and ensure grantee compliance. The Office of Justice
     Programs requests closure of this recommendation and requests written acceptance of this
     action from your office.

7.   We recommend that OJP and COPS update the December 2012 award coordination
     memorandum to ensure that NIJ is included as a participant in UAS award coordination
     efforts.

     The Office of Justice Programs agrees with the recommendation. OJP will work with the
     Department of Justice (DOJ, Department), Office of Community Oriented Policing Services
     (COPS Office), to update the December 2012 Memorandum of Understanding between the
     COPS Office and BJA to include NIJ in collaboration and information-sharing efforts related to
     UAS awards. The Office of Justice Programs considers this recommendation resolved and
     requests written acceptance of this action from your office.

8.   We recommend that OJP and COPS notify the FBI, ATF, DEA, and USMS of future UAS
     awards and work with these components to identify and share relevant data derived from
     UAS funded with DOJ awards.

     The Office of Justice Programs agrees with the recommendation. OJP believes that the
     appropriate forum to coordinate and share information on relevant Department level UAS-
     related activities is the DOJ UAS Working Group, currently comprised of representatives from
     NIJ and the DOJ law enforcement components. NIJ members, in this capacity, represent all
     OJP bureaus and program offices, and as appropriate, will bring relevant OJP information to the
     attention of the working group. This group will determine the most effective mechanism(s) to
     share and disseminate information to the DOJ law enforcement components. The Office of
     Justice Programs requests closure of this recommendation and requests written acceptance of
     this action from your office.

Thank you for your continued support and assistance. If you have any questions regarding
this response, please contact Maureen A. Henneberg, Director, Office of Audit, Assessment,
and Management, on (202) 616-3282.




                                               23 

Attachments

cc:   Anna Martinez
      Senior Advisor to the Associate Attorney General
      Office of the Associate Attorney General

      Mary Lou Leary
      Principal Deputy Assistant Attorney General

      James H. Burch, II
      Deputy Assistant Attorney General
        for Operations and Management

      Denise O’Donnell
      Director
      Bureau of Justice Assistance

      Gregory K. Ridgeway
      Acting Director
      National Institute of Justice

      Leigh Benda
      Chief Financial Officer

      Maureen A. Henneberg
      Director
      Office of Audit, Assessment, and Management

      Jeffery A. Haley
      Deputy Director, Audit and Review Division
      Office of Audit, Assessment, and Management

      Rafael A. Madan
      General Counsel

      Charles Moses
      Deputy General Counsel

      Melodee Hanes
      Acting Director
      Office of Communications

      Richard P. Theis
      Director, Audit Liaison Group
      Internal Review and Evaluation Office
      Justice Management Division



                                               24 

cc:   OJP Executive Secretariat
      Control Number 2013 – 1514




                                   25 

                                                                                     APPENDIX III

         THE OFFICE OF COMMUNITY ORIENTED POLICING SERVICES’
                     RESPONSE TO THE DRAFT REPORT




MEMORANDUM

TO:            Raymond J. Beaudet
               Assistant Inspector General for Audit
               Office of the Inspector General

FROM:          Joshua A. Ederheimer
               Acting Director
               Office of Community Oriented Policing Services

DATE:          September 16, 2013

SUBJECT:       Draft Audit Report on the Department of Justice Use and Support of Unmanned
               Aircraft Systems

This memorandum is in response to the Office of the Inspector General’s (OIG) above- referenced
draft audit report, dated September 6, 2013. Thank you for the opportunity to review and comment on
the draft Office of the Inspector General report entitled, “Interim Report of the Department of Justice’s
Use and Support of Unmanned Aircraft Systems.” The Department of Justice (DOJ) Office of
Community Oriented Policing Services (COPS) appreciates the work of the OIG and has carefully
considered the findings and recommendations presented in OIG’s draft interim report.

The COPS Office thanks the OIG for its review of the COPS Office’s grant management of one award
where a budget modification of a methamphetamine eradication award resulted in the purchase of an
Unmanned Aerial Vehicle (UAV) by local law enforcement in 2009. We believe that we did follow
all statutory requirements in place at that time. We are pleased that, despite its extensive review, the
OIG found no evidence to the contrary. In reviewing our current authorized grant programs--COPS
Hiring, Tribal Resources Grant Program, and Community Policing Development—it is highly unlikely
that a UAV would be requested and approved as an allowable cost. However, should a request for this
type of equipment arise in the future, we will coordinate with the Office of Justice Programs on any
issues that would affect the management of such grants.

Five recommendations are addressed to the COPS Office or to both the COPS Office and the
Office of Justice Programs (OJP). For ease of review, the draft audit recommendations are
stated in bold and underlined, followed by the COPS Office’s response to each recommendation.




                                                   26 

Page 2

Recommendation 4 (to the COPS Office): Review its award tracking system to ensure
that this and any other future UAS award will be tracked accurately and expeditiously.

The COPS Office concurs with this recommendation.

None of the current programs funded by the COPS Office lend themselves to funding UAS.
However, for future programs, the COPS Office will re-evaluate the prospective program
statutory language and determine the allowability of funding a UAS. Should the COPS Office
determine that funding a UAS is allowable, we will ensure that all future UAS awards will be
tracked accurately and expeditiously.


Recommendation 5 (to the COPS Office and OJP): Establish enhanced reporting
requirements and use reported information to measure the effectiveness of their UAS
awards.

The COPS Office concurs with this recommendation.

None of the current programs funded by the COPS Office lend themselves to funding UAS.
However, for future programs, the COPS Office will re-evaluate the prospective program
statutory language and determine the allowability of funding a UAS. Should the COPS Office
determine that funding a UAS is allowable, we will establish enhanced reporting requirements.


Recommendation 6 (to the COPS Office and OJP): Require that grant applicants
demonstrate that they can meet the prerequisites necessary to become authorized to
operate a UAS.

The COPS Office concurs with this recommendation.

None of the current programs funded by the COPS Office lend themselves to funding UAS.
However, for future programs, the COPS Office will re-evaluate the prospective program
statutory language and determine the allowability of funding a UAS. Should the COPS Office
determine that funding a UAS is allowable, we will require that grant applicants demonstrate
that they can meet the prerequisites necessary to become authorized to operate a UAS.
Appropriate language will be added to the grant terms and conditions of the award.


Recommendation 7 (to the COPS Office and OJP): Update the December 2012 award
coordination memorandum to ensure that NIJ is included as a participant in UAS award
coordination efforts.

The COPS Office concurs with this recommendation




                                            27 

. Page 3

 The December 2012 award coordination memorandum to which the OIG is referring is a
 December 2012 Memorandum of Understanding (MOU) between the COPS Office and OJP
 Bureau of Justice Assistance (BJA). The COPS Office will work with BJA to update the MOU
 to include NIJ in collaboration and information-sharing efforts.


 Recommendation 8 (to the COPS Office and OJP): Notify the FBI, ATF, DEA, and
 USMS of future UAS awards and work with these components to identify and share
 relevant data derived from UAS funded with DOJ awards.

 The COPS Office concurs with this recommendation.

 None of the current programs funded by the COPS Office lend themselves to funding UAS.
 However, for future programs, the COPS Office will re-evaluate the prospective program
 statutory language and determine the allowability of funding a UAS. Should the COPS
 Office determine that funding a UAS is allowable, we will notify the FBI, ATF, DEA and
 USMS of future UAS awards and work with these components to identify and share relevant
 data derived from UAS-funded with COPS awards, as appropriate.


 The COPS Office thanks the Office of the Inspector General for the opportunity to review
 and respond to this draft audit. If you have any questions, please contact Martie Viterito at
 (202) 514-6244, or Donald Lango at (202) 616-9215. If I may be of further assistance to
 you, please do not hesitate to contact me.

 cc: Richard P. Theis
     Assistant Director, Audit Liaison Group
     Justice Management Division

     Wayne Henry, Acting Deputy Director
     Management Services Directorate
     Office of Community Oriented Policing Services

     Katherine McQuay, Acting Deputy Director
     Community Policing Advancement
     Office of Community Oriented Policing Services

     Sandra Webb, Deputy Director
     Operations Directorate
     Office of Community Oriented Policing Services

     Troy Meyer
     Regional Audit Manager, Washington Regional Audit Office
     Office of the Inspector General




                                               28 

Page 4

cc: 	Marcia L. Wallace
     Director, Office of Operations
     Office of the Inspector General




                                       29 

                                                                APPENDIX IV

              OFFICE OF THE INSPECTOR GENERAL 

             ANALYSIS AND SUMMARY OF ACTIONS


               NECESSARY TO CLOSE THE REPORT




     The OIG provided a draft of this report to the ODAG, OJP and COPS.
The ODAG’s response is incorporated as Appendix I of this report. OJP’s
response is incorporated as Appendix II, and COPS’ response is incorporated
as Appendix III. The following provides the OIG analysis of the responses
and summary of actions necessary to close the report.

Recommendation Number:

   1.		 Resolved. The ODAG concurred with our recommendation to
        convene a working group comprised of DOJ components using or
        with an interest in using UAS to determine whether DOJ requires a
        UAS specific policy to address privacy and legal concerns and to
        identify and address UAS policy concerns shared across components
        or requiring coordination among other federal agencies. The ODAG
        stated that in August 2013, it directed the Office of Legal Policy (OLP)
        to convene a working group composed of several DOJ components,
        including the Office of Privacy and Civil Liberties, to identify and
        address any policy and legal issues pertaining to the use of UAS for
        surveillance purposes. According to ODAG, this working group will
        make a recommendation to DOJ leadership on the need for any DOJ
        policies or guidance specific to UAS, and will work to develop any
        such policies or guidance as needed.

       However, ODAG also states that it is participating in an interagency
       process that is considering UAS-related policy issues that are shared
       across departments and agencies. The ODAG believes that this
       interagency process will satisfy the recommendation that DOJ
       identify and address the need for UAS policy concerns.

       This recommendation can be closed when we obtain a list of
       components comprising the DOJ working group and receive evidence
       that the DOJ working group has met, considered the substance of
       any privacy-related deliberations as well as the scope and content of
       any UAS-related policies resulting from DOJ’s involvement in the UAS
       interagency process, and that the working group has reached a




                                      30 

       conclusion on whether DOJ-specific policy to address privacy and
       legal concerns of UAS operations is warranted.

 2.		 Closed. The ODAG concurred with our recommendation to consider
      whether to solicit DOJ’s admission to the UAS Executive Committee
      so that DOJ can be involved in formal discussions with other
      Executive Branch agencies regarding UAS issues. The ODAG states
      that DOJ is now participating in alternative, formal discussions with
      other departments and agencies about a range of issues related to
      UAS use. The OIG considers DOJ’s participation in this alternate
      interagency process sufficient to close this recommendation.

3.		   Resolved. OJP concurred with our recommendation to assess and
       enhance its ability to track UAS-related awards to ensure that it can
       readily identify how DOJ award funds have been used to support UAS
       technology.

       OJP indicates that it has added new project identifiers to its Grants
       Management System (GMS) to enhance its ability to track UAS-
       related awards. OJP also states that individual grant files will include
       these descriptors which will allow OJP bureaus and program offices to
       identify the grants during the award process.

       In addition to using the project identifier feature, OJP indicates that it
       can conduct key word searches to access UAS-related awards. OJP
       states that the Bureau of Justice Assistance (BJA) can access UAS-
       related awards through its Performance Measurement Tool (PMT).
       Although OJP states that it can access UAS-related awards through
       keyword searches and project identifiers in GMS and PMT, it has not
       provided sufficient documentation to demonstrate how these tools
       will be used.

       This recommendation can be closed when we receive evidence,
       including a demonstration, of how these new search terms and tools
       actually enhance OJP’s ability to identify UAS-related awards.

4.		   Resolved. COPS concurred with our recommendation to review its
       award tracking system to ensure that UAS awards will be tracked
       accurately and expeditiously.

       COPS stated that none of its current programs lend themselves to
       funding UAS. For future programs, COPS states that it will re-
       evaluate prospective program statutory language, determine the



                                      31 

       allowability of funding a UAS, and ensure that all future UAS awards
       are tracked accurately and expeditiously.

       Although COPS is not currently funding UAS, as noted in our report,
       COPS did solicit a UAS-related award in 2013. Therefore, OIG would
       expect that COPS will review its award tracking system and method
       of identifying award funding for UAS uses to ensure that current and
       any future UAS awards can be tracked accurately.

       This recommendation can be closed when we receive evidence of
       COPS’ review of its award tracking system, including a demonstration
       of how COPS’ system can account for UAS-related awards.

5.		   Resolved. OJP and COPS concurred with our recommendation to
       establish enhanced reporting requirements and use reported
       information to measure the effectiveness of their UAS awards.

       OJP has provided evidence beginning with its fiscal year (FY) 2013
       cycle, that all grants awarded under the Edward Byrne Memorial
       Justice Assistance Grant (JAG) Programs (State and Local), will
       include a special condition that requires BJA Director approval prior
       to expending JAG funds on unmanned aircraft, unmanned aircraft
       systems, or aerial vehicles. This special condition will also state that
       JAG funding approved for this purpose would be subject to additional
       reporting, which would be stipulated by BJA post-award. OJP also
       states that BJA will review existing JAG performance measures to
       determine if additional questions, related to UAS, should be added to
       its PMT to collect data on the effectiveness of such purchases
       awarded under future grants.

       However, this recommendation is not limited to a particular grant
       program, and OJP should ensure that any grant program capable of
       funding UAS also include similar stipulations and conditions.
       Furthermore, OJP has not specified what additional reporting
       requirements will be implemented or what types of information will
       be collected.

       OJP further states that the National Institute of Justice (NIJ) already
       establishes performance and evaluation criteria as part of its UAS-
       related awards, and disseminates research results to the criminal
       justice community. OIG notes that the report took no issue with the
       reporting under NIJ’s cooperative agreements.

       COPS stated that none of its current programs lend themselves to


                                      32 

       funding UAS. For future programs, COPS states that it will re-
       evaluate prospective program statutory language, and determine the
       allowability of funding a UAS. Should COPS determine that funding a
       UAS is allowable, it will establish enhanced reporting requirements.
       COPS also stated that it is not currently funding UAS and should it
       decide to fund UAS in the future, it will establish enhanced reporting
       requirements at that time.

       This recommendation can be closed when we receive evidence of the
       components’ review of their performance measures related to UAS
       awards and determination of additional reporting requirements. With
       respect to OJP, such review should include not only the State and
       Local JAG Programs, but any OJP grant program. Further, such
       evidence should show that these reporting requirements will obtain
       uniform UAS information and will identify issues local law
       enforcement may encounter. As noted in the report, components
       could consider whether to include as reporting requirements: (1) the
       specific UAS models acquired, (2) the frequency and manner with
       which the recipient used or tested UAS, (3) what type of data was
       collected by UAS and whether the recipient had UAS-specific policies,
       (4) how collected data was used in an investigation and subsequently
       safeguarded, (5) any problems encountered during operation or
       other concerns, and (6) best practices identified by the recipient that
       pertain to UAS operations and testing.

6.		   Resolved. OJP and COPS concurred with our recommendation to
       require that grant applicants demonstrate that they can meet
       prerequisites necessary to become authorized to operate a UAS.

       OJP provided evidence that BJA has included language in its FY 2013
       JAG solicitations regarding BJA Director approval for UAS-related
       technology expenditures. OJP stated that if any JAG award funds are
       budgeted for these expenditures an additional special condition will
       be added to the award to verify the prerequisites necessary to
       become authorized to operate the UAS. OJP states that BJA grant
       managers will review these requirements and ensure grantee
       compliance as a part of its programmatic monitoring.

       COPS stated that none of its current programs lend themselves to
       funding UAS. For future programs, COPS states that it will re-
       evaluate prospective program statutory language and determine the
       allowability of funding a UAS. Should COPS determine that funding a
       UAS is allowable, it will require the grant applicants demonstrate that
       they can meet the prerequisites necessary to become authorized to


                                     33 

       operate a UAS and will add appropriate language to the award terms
       and conditions.

       However, we believe it is necessary for both COPS and OJP to
       memorialize in a written communication to its program offices the
       need to develop UAS prerequisites for any future awards that
       applicants will have to meet. Further, we note that it appears that
       BJA does not plan to communicate to future applicants that
       prerequisites will be required until after it awards UAS-related grants.

       This recommendation can be closed when we receive evidence that
       OJP will communicate the existence of any prerequisite requirements
       to future applicants for UAS-related funding prior to making awards
       and when we receive evidence that both OJP and COPS have made
       written communications to their program offices regarding UAS
       prerequisite development.

7.		   Resolved. OJP and COPS concurred with our recommendation to
       update the December 2012 award coordination memorandum to
       ensure that NIJ is included as a participant in UAS award
       coordination efforts.

       OJP and COPS state that they will work together to update the
       December 2012 Memorandum of Understanding between the COPS
       Office and BJA to include NIJ in collaboration and information-sharing
       efforts related to UAS awards.

       This recommendation can be closed when we receive evidence that
       OJP and COPS have updated the Memorandum of Understanding to
       include NIJ in UAS-award coordination efforts.

8.		   Resolved. OJP and COPS concurred with our recommendation to
       notify the FBI, ATF, DEA, and USMS of future UAS awards and work
       with these components to identify and share relevant data derived
       from UAS projects funded with DOJ awards.

       OJP indicates it believes that the DOJ UAS Working Group, currently
       comprised of representatives from NIJ and the DOJ law enforcement
       components is the appropriate forum to coordinate and share
       information on UAS-related activities. OJP further states that NIJ is
       representing all OJP bureaus and program offices at this working
       group.

       COPS stated that none of its current programs lend themselves to


                                     34 

funding UAS. For future programs, COPS states that it will re-
evaluate prospective program statutory language, and determine the
allowability of funding a UAS. Should COPS determine that funding a
UAS is allowable, it will notify FBI, ATF, DEA, and USMS of future
UAS awards and work with these components to identify and share
relevant data derived from UAS-funded awards.

This recommendation can be closed when we receive evidence that
DOJ UAS Working Group has met and developed a documented
method for DOJ awarding components to identify and share relevant
data derived from DOJ funded UAS projects with DOJ law
enforcement components, allow those components to share their
expertise with UAS award recipients, and provide a venue for DOJ to
receive feedback on law enforcement needs to ensure that DOJ-
funded local use of UAS does not affect ongoing DOJ law enforcement
initiatives.




                            35 

